OIG Investigative Reports, Louisiana 02/25/2010 - Betty Jefferson and Angela Coleman Plead Guilty in Federal Court.
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States U.S. Attorney's Office
Eastern District of Louisiana
U.S. Attorney's
Office
Eastern District of
Louisiana
500 Poydras St
Suite 210-B
New Orleans,
Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
BETTY JEFFERSON AND ANGELA COLEMAN PLEAD GUILTY IN FEDERAL COURT
February 25, 2010
FOR IMMEDIATE RELEASE
BETTY JEFFERSON, age 70, an elected tax assessor in New Orleans, and her daughter, ANGELA COLEMAN, age 53, both residents of New Orleans, Louisiana, pled guilty today before U. S. District Judge Ivan L. R. Lemelle to a Superseding Bill of Information charging conspiracy to commit Mail Fraud, Aggravated Identity Theft, Money Laundering, and Tax Evasion, announced U. S. Attorney Jim Letten.
According to the factual basis, JEFFERSON and COLEMAN admitted today that between approximately 1999 and 2006, they participated in a scheme to obtain money and property for their financial and political benefit both directly and through the use of various non-profit entities and for-profit companies, as well as the elected offices of the State Representatives Office for District 91, the City Councilmember’s Office for District B, and the Office of Tax Assessor for the 4th Municipal District of Orleans Parish and Mose Jefferson. The pleas were part of a plea/cooperation agreement with the United States.
The defendants face a possible maximum sentence of five (5) years imprisonment, a $250,000 fine and three (3) years supervised release. Sentencing has been scheduled for May 26, 2010.
The case was investigated by the Federal Bureau of Investigation, the Internal Revenue Service, Criminal Investigation Division, the United States Department of Education, Office of Inspector General and the United States Department of Housing and Urban Development, Office of Inspector General. The case is being prosecuted by Assistant U. S. Attorneys Fred P. Harper, Jr., Daniel P. Friel, and Brian Marcelle.
Download Factual Basis
Download Superseding Bill of Information
Top
Printable view
Last Modified: 03/03/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov